<html>
<title> - NOMINATION OF CARL J. ARTMAN</title>
<body><pre>[Senate Hearing 109-665]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-665

                      NOMINATION OF CARL J. ARTMAN

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

 THE NOMINATION OF CARL J. ARTMAN TO BE ASSISTANT SECRETARY OF INDIAN 
                  AFFAIRS, DEPARTMENT OF THE INTERIOR

                               __________

                           SEPTEMBER 14, 2006
                             WASHINGTON, DC

















                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

29-918 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001











                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

               John Tahsuda, III, Majority Staff Director
                Sara G. Garland, Minority Staff Director

                                  (ii)













                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Artman, Carl J., nominee to be assistant secretary, Indian 
      Affairs, Department of the Interior, Washington, DC........     4
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     2
    Hughes, Kathy, vice chairwoman, Oneida Nation of Wisconsin...     3
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     3
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    Thomas, Hon. Craig, U.S. Senator from Wyoming................     2

                                Appendix

Prepared statements:
    Artman, Carl J. (with attachment)............................     9
    Conrad, Hon. Kent, U.S. Senator from North Dakota............    14
Additional material submitted for the record:
    Inter-Tribal Council of the Five Civilized Tribes Resolution 
      No. 20006-09...............................................    15
    Letters......................................................    17
    Biographical and Financial Information Requested of 
      Department/Agency Nominees.................................    29
    Questions with responses.....................................    49



















 
                      NOMINATION OF CARL J. ARTMAN

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2006


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485 Senate Russell Office Building, Hon. John McCain (chairman 
of the committee) presiding.
    Present: Senators McCain, Dorgan, Johnson, and Thomas.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning.
    This morning, the committee will receive testimony on the 
President's nomination of Carl Artman to be Assistant Secretary 
for Indian Affairs in the Department of the Interior. A 
statement will also be made by Kathy Hughes, the vice 
chairperson of the Oneida Tribe of Wisconsin, of which Mr. 
Artman is a member.
    On Thursday of last week, the committee members received a 
committee memorandum containing the background information for 
Mr. Artman. In addition, I have had the opportunity to meet 
personally and I understand that a number of the members have 
as well. His background and my discussions with him convince me 
that he possesses the personal and professional qualifications 
for this job. In fact, I would note that Mr. Artman appears to 
have a varied background with business and government service 
intermixed, which will serve him well in what is one of the 
most challenging positions in the Federal Government. I believe 
the President has chosen wisely in nominating Mr. Artman.
    [Prepared statement of Senator McCain appears in appendix.]
    The Chairman. Mr. Artman, before we proceed, I must add 
this comment. Among the very significant challenges your agency 
faces, the trust fund litigation is the greatest. This 
committee has worked very hard to try to find a reasonable 
resolution to this disaster. Over 5 weeks ago, the vice 
chairman and I met with Secretary Kempthorne and Attorney 
General Gonzales and proffered what we believe to be a 
reasonable resolution. Both the Secretary and the Attorney 
General said they would circulate that within the 
Administration and get back to us. To date, we have had no 
official response and the window for action this year is 
closing fast.
    Therefore, we have sent a letter to the Secretary and the 
Attorney General again asking for a final assessment and 
response. I think it is incomprehensible that the 
Administration would not be able to come up with at least a 
response to what is a product of years of effort on the part of 
this committee and the interested parties.
    Please take this message back to the Secretary. We 
understand he has been working hard to find a settlement 
solution, but if we don't act now, this historic opportunity 
will be lost.
    Before we begin, I must note that many of our colleagues 
have additional commitments this morning, including an Armed 
Services meeting I must attend. While I know that there are 
many questions to ask of Mr. Artman, I hope that we can proceed 
with some dispatch. As we know, Mr. Artman has committed to 
giving responses to written questions back to us by Monday.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Artman and I had a meeting earlier this morning. I 
appreciate his time. The vice chairman of the Oneida Tribe is 
with us today as well, I understand. Kathy Hughes, we welcome 
you.
    I am going to simply put my entire statement in the record. 
I will defer asking questions as well. I do want to make a 
comment about the Cobell case. I told Mr. Artman this morning 
that I am going to support him, and I think he is someone who 
has really excellent qualifications. I suggested that the only 
reason to take these jobs is to make a difference and to speak 
out and be strong. In his tenure, I think the Cobell case, if 
unresolved, will weigh over all the other issues and have a 
profound impact on virtually everything else that the 
Department of the Interior is trying to do with respect to 
these Indian issues.
    I know that there have been meetings with Interior, 
Treasury, Justice, and OMB. It seems to me that there is a less 
urgent interest in this at the Office of Management and Budget. 
My hope is that the Administration will find a way to bring all 
these agencies together and understand the urgency of trying to 
solve this problem, and doing so very soon because the clock is 
ticking. If we don't get it resolved now, this is going to drag 
on for years and will impact virtually every other Indian 
program.
    So again, Mr. Artman, thank you for coming in this morning 
for a good visit. I look forward to hearing your comments 
today. Then, I look forward to when you are confirmed. I think 
you will be. I look forward to working with you on some very 
vexing problems and challenges that we must resolve.
    The Chairman. Senator Thomas.

   STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I won't take time. 
I, too, am impressed with the background that Mr. Artman has. 
Unfortunately, I have not had an opportunity to visit with him, 
but I will look forward to doing that, and we can move on with 
the committee.
    The Chairman. Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman.
    I will just briefly say to Mr. Artman, congratulations. I 
am supportive of your nomination. In my State, several lawsuits 
have arisen between tribes and the BIA. While some disputes are 
probably unavoidable, in many cases an improved commitment to 
providing meaningful consultation with tribal governments would 
go a long ways toward reducing the amount of litigation the 
tribes have felt forced to pursue.
    The tribes in my State are some of the poorest in the 
Nation. So when they choose to exhaust their minimal resources 
on the cost of litigation against the BIA, it is done only in 
the most serious feelings of breach of trust. So I hope that, 
again, consultation will be a very high priority. I appreciated 
meeting with you in my office yesterday. Your discussion of 
priorities involving education, economic development and law 
enforcement are priorities that I believe need to be pursued 
aggressively.
    So again, congratulations, and I look forward to working 
very closely with you as we deal with these issues in a 
consultative, government-to-government manner with our tribes.
    I will submit my statement for the record.
    [Prepared statement of Senator Johnson appears in 
appendix.]
    The Chairman. Thank you very much.
    I understand we are joined this morning by Kathy Hughes, 
who is the vice chairwoman of the Oneida Nation of Wisconsin, 
who would like to make a comment concerning the nominee. 
Welcome, Ms. Hughes. Your entire statement will be made part of 
the record.

 STATEMENT OF KATHY HUGHES, VICE CHAIRWOMAN, ONEIDA NATION OF 
                           WISCONSIN

    Ms. Hughes. Thank you, and good morning Chairman McCain and 
members of the committee. I bring you greetings on behalf of 
Chairman Gerald Danforth, who is extremely disappointed that he 
cannot be here today to support one of our own, but he had 
prior obligations as he is also chairman for the Great Lakes 
Intertribal Council, which convenes today.
    I am here to represent nearly 16,000 Oneida members who 
share my pride as I come forward to express our support and 
confidence in the nomination of Carl Artman, an enrolled Oneida 
tribal member. The Oneida continue to be proud of our 
contributions to the democracy of this Nation. President Lyndon 
Johnson appointed an Oneida, Robert L. Bennett, to be named the 
Commissioner of Indian Affairs. Likewise, President George W. 
Bush named Aurene Martin, a descendant of the Oneida, as the 
acting secretary. Today, it is another Oneida considered for 
the BIA's top job, Assistant Secretary of Indian Affairs.
    Mr. Artman is a bright and extremely hard-working 
individual who has a broad and distinguished academic 
background. Having earned J.D. and an LLM from Washington 
University, Carl is an accomplished lawyer. Later, Carl 
returned to school to complete an MBA at the University of 
Wisconsin in Madison. As such, he is familiar with many legal 
and economic forces that will impact this office.
    Additionally, he has true Washington experience, having 
worked on Capitol Hill for Congressman Oxley and later in 
representing the Oneida Tribe and our interests in the halls of 
Congress. Carl has great skills and broad diversity of 
experience upon which to call in the exercise of duties as the 
Assistant Secretary.
    Also, the Oneida Tribe applauds President Bush for 
nominating an individual that truly has experience in working 
directly for and with tribes. It is important for tribes across 
the Nation to have a native in this position that understands 
and appreciates the complexities of being a sovereign within a 
sovereign. As the Oneida Tribe's Chief Counsel, Carl was a 
critical member of our team which successfully negotiated 
several tribal-municipal agreements with those non-Indian 
communities surrounding Oneida. I believe this experience will 
prove to be of great benefit to all of Indian country.
    In summary, he comes before you with an array of attributes 
necessary to engage this Administration, understand the 
relationships with Congress, and appreciate the unique and 
common issues affecting the Indian nations. We believe Mr. 
Artman's experience thoroughly qualifies him for this position.
    Mr. Chairman, you will recall that in 1976 and again in 
1989, this committee heard testimony regarding the role of our 
Nation in the founding of the United States, the incorporation 
of many of our governmental concepts into the American 
Constitution, and our commitment to the colonies in the 
Revolutionary War, commitments that helped found and serve 
America.
    Our people's long and proud tradition is a part of this 
country's tradition of governments of and by the people. A 
tradition of leaders as true public servants guides us and 
certainly guides Carl. It is therefore right and proper that an 
Oneida now comes forward to hold this high post. We believe 
that Carl Artman will do this with honor and distinction.
    Thank you.
    The Chairman. Thank you very much, Vice Chairwoman Hughes.
    Mr. Artman, I understand you have members of your family 
here today. Would you like to recognize them?
    Mr. Artman. Thank you, Senator, yes, I would.
    This is my mother, Carol Artman; my wife, Wendy; one of my 
two boys, Bennett; and next to Bennett is Bobby Webster, also a 
member of the Oneida Tribe who came out here.
    The Chairman. Thank you. You are welcome, and we are glad 
you are here to take part in this great occasion as Mr. Artman 
agrees to serve our Nation. We thank you, Mr. Artman. Please 
proceed with your opening statement.

STATEMENT OF CARL J. ARTMAN, NOMINEE TO BE ASSISTANT SECRETARY-
           INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Artman. Thank you.
    Mr. Chairman, Senator, my name is Carl Artman. It is a 
privilege and an honor to appear before you this morning 
seeking your confirmation of my nomination by President Bush to 
the post of Assistant Secretary for Indian Affairs.
    I am a member of the Oneida Tribe of Indians of Wisconsin, 
one of six Indian nations of the Haudenosaunee or Iroquois 
Confederacy. I have served my tribe in positions ranging from 
tribal representative in Washington, DC to chief operating 
officer of a telecommunications partnership, to most recently 
chief counsel to the tribe. I currently serve as the Associate 
Solicitor for Indian Affairs for the Department of the 
Interior.
    I am honored to have been nominated by President Bush and 
look forward to the challenges that lie ahead. Indian country 
provides an overwhelming number of challenges, youth suicide, 
drug abuse, high unemployment rates, lack of adequate health 
care, challenged education facilities and curricula, crumbling 
infrastructure from roads to irrigation ditches, and crime 
outpacing law enforcement.
    To these societal plagues, Indian country has its unique, 
though historically consistent problems, like the erosion of 
sovereignty, expanding governance and self-determination, 
fighting to maintain its identity and control over its destiny 
and lands.
    If you asked me why I want this job, my answer will be 
because of all the challenges that exist, the challenges Indian 
and Alaska Natives face today seem insurmountable. Yet, I see 
the determination and potential of Indians and Alaska Natives. 
Reservation populations are growing. Leaders are digging in to 
stem the spread of methamphetamines and the lawlessness that 
follows in its wake. Educators, parents and police are learning 
to identify youths at risk of committing suicide and 
interceding.
    Teachers at tribal schools provide more with less, and inch 
by inch tribes are reclaiming their land and the inherent 
rights of such ownership. As Indians and Alaska Natives reclaim 
their rights lost through history or to societal plagues, the 
Department of the Interior must be their partner in these 
battles. I hope to expedite and streamline access to 
departmental goals to assist tribal and Alaska Native 
communities to develop their natural, political and 
socioeconomic infrastructure.
    The trust litigation of the last decade has tested the 
commitment of many, especially the overarching individual 
Indian money account litigation. Many in the department are 
afraid their actions, no matter how well-meaning or beneficial 
to the tribes, may run afoul of the attorneys or the sitting 
judge, and that they may be held in contempt. This fear bogs 
down the department. It impedes Indian-centric goals of the 
department and hurts tribes and individuals across the Nation. 
Resolution to this matter is critical, whether it comes from 
Congress, the Administration or the courts.
    From whatever quarter it hails, if confirmed, I stand ready 
to assist in its development and implementation. The sooner 
this litigation ends, the sooner we improve our relationship 
with tribes and the sooner we increase for Indians and Alaska 
Natives the impact of the benefits of that relationship.
    The Department of the Interior can and will be a positive 
force in Indian country. It is impossible to eliminate 
immediately that which has festered for years. However, I will 
lay the foundation for an era that will provide a fresh start 
and new commitments through action to programmatic goals and 
mandated duties. This will allow tribal governments, Indians 
and Alaska Natives to build bulwarks against societal plagues. 
They can reclaim their unique cultures, rich in tradition, 
spirituality and group-centric values, not one of despair or 
hopelessness.
    If confirmed, I will foster an interaction of partnership 
and mutual goals, not just fiduciary requirements. If 
confirmed, I will use the Office of the Assistant Secretary for 
Indian Affairs to promote communications between tribes that 
have realized financial success through gaming or other 
business ventures, and those that strive for a fraction of that 
success, to move beyond the provision of subsistence benefits 
to their membership.
    The success of one tribe, either in business, government 
administration or cultural preservation, is the best incubator 
for success of other tribes. Trailblazing tribes allow those 
that follow to go even further.
    If confirmed, I will use the office to promote more vibrant 
and goal-oriented communications between tribes and their 
neighbors, be it a local or State government or a business that 
seeks to partner with a tribe for their mutual benefit. If 
confirmed, I hope to foster the growth of tribal governments. 
Tribal sovereignty is inherent and this sovereignty is best 
exhibited in a vibrant tribal government, one that understands 
judicious exercise of its jurisdiction for the benefit of its 
members and the seventh generation.
    Tribal governments embody the power of sovereignty. Tribal 
government cares for the present and plans for the future. It 
is what the outside examines to judge the health of the tribe. 
It is the face of the tribe and the hope of the tribe.
    Tribal governments can accomplish great things. The peoples 
and tribes of the Haudenosaunee, the Iroquois Confederacy, 
comprise the oldest continuous participatory democracy on 
earth. Authors of our United States representative government, 
Ben Franklin and Thomas Jefferson, were inspired by the 
Iroquois Confederacy, its inner workings, and the constitution 
of the Iroquois known as the Great Binding Law, or in our 
language, Gayanashagowa.
    Our founding fathers' inspirations rooted in the 
Haudenosaunee guide all of our lives today and continue to 
motivate people across the globe to achieve a greater freedom 
for themselves and their countrymen. That is the potential of 
tribal governments.
    But before they inspire neighbors or nations, tribal 
governments must be able to fight the cancer within, the 
obstacles of drug abuse, youth suicide, joblessness, 
hopelessness. Indians and Alaska Natives must reach into their 
past to find their way and provide impetus for change.
    If confirmed, I hope to bring forth the potential of the 
breadth and depth of the Department of the Interior and 
specifically the Office of the Assistant Secretary of Indian 
Affairs so that Indians and Alaska Natives can use these 
resources, their resources, to conquer problems bearing down on 
their governments and people to gain that foothold that will 
propel them upward and preserve a culture and build a legacy, 
and to provide a future for their seventh generation that is as 
great as their past.
    Mr. Chairman, Senators, thank you.
    [Prepared statement of Mr. Artman appears in appendix.]
    Senator Dorgan [presiding]. Mr. Artman, thank you very 
much.
    Chairman McCain had to leave for the Committee on Armed 
Services where they are considering the issue of tribunals for 
the prosecution of terrorists. As all of you know from having 
been reading the papers in recent days, Chairman McCain is one 
of the central discussants in this issue, and had to be down at 
Armed Services right now. He apologizes, but we will proceed to 
consider the issues on the agenda in the absence of Senator 
McCain. He has asked me to proceed.
    Let me ask whether Senator Thomas has any questions of Mr. 
Artman?
    Senator Thomas. Thank you.
    Thank you for your testimony. Certainly, your experience 
will be useful.
    It is my understanding that in your tribe, you have been 
involved in some off-reservation casino activity. Tell me what 
your position is on that. Will you recuse yourself on this? 
What is the situation?
    Mr. Artman. Thank you, Senator, for the question.
    To answer the last part of the question, first, yes, when I 
was chief counsel for the Oneida Tribe of Indians of Wisconsin, 
I was involved in a New York land claims matter that did 
involve the potential of an off-reservation gaming site as part 
of the settlement. With regards to the recusal, in my packet I 
have included a letter from our ethics office at the Department 
of the Interior which outlines my recusal, which will be very 
narrow and it will focus on the issues that have involved the 
Oneida Tribe of Indians of Wisconsin in the past. The letter 
goes into further detail on that.
    With regards to off-reservation gaming itself, I know that 
has been a very hot-button issue of recent years, and certainly 
looking at even yesterday on the House side, with the 
consideration of the legislation. At this point, the Indian 
Gaming Regulatory Act has considered the potential of off-
reservation gaming, and it has outlined in broad form how that 
may occur. The rules as implemented by the Department of the 
Interior of what we will call section 20 expand on that 
further. Soon, the Department of the Interior will be issuing 
the section 20 regulations to bring those into the Federal 
Register process, to make those processes public and 
consistent.
    Since that has been considered by the Congress in IGRA and 
it requires a two-part determination, one that looks at the 
impact to the local governments, to other communities, to the 
tribal communities that may be nearby, and a concurrence by the 
Governor. That is something we take very seriously. In that 
initial analysis done by the Secretary of the Interior, we look 
at all sorts of factors, and that analysis takes a long time. 
Out of the dozens that have been submitted, I believe only 
three have passed so far, and none in recent years.
    If Congress should decide to change, amend IGRA to address 
the off-reservation gaming issue, if confirmed I stand ready to 
implement the law as written.
    Senator Thomas. Thank you.
    Senator Dorgan. Mr. Artman, again we thank you for taking 
on this mission. It is in the interests of this committee and 
the entire Congress, and I think our country, that you succeed. 
We have, as I said, very difficult problems to grapple with, 
very high unemployment, a crisis in health care, housing and 
education on many reservations in this country. We want you to 
succeed and we appreciate your willingness to accept this role 
in public service.
    Unless there is objection, we will by unanimous consent 
this morning approve the nomination and report the nomination 
to the floor of the Senate. Without objection, the nomination 
will be approved.
    This hearing is adjourned.
    [Whereupon, at 10 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Carl J. Artman, Nominee, Assistant Secretary for 
               Indian Affairs, Department of the Interior

    Mr. Chairman, Senators, my name is Carl Artman. It is a privilege 
and an honor to appear before you this morning seeking your 
confirmation of my nomination by President Bush to the post of 
assistant secretary for Indian Affairs.
    I am a member of the Oneida Tribe of Indians of Wisconsin, one of 
six Indian nations of the Haudenosaunee, or Iroquois Confederacy. I 
have served my tribe in positions ranging from the tribal 
representative in Washington, DC to chief operating officer in a 
telecommunications partnership to, most recently, chief counsel of the 
tribe. I currently serve as the associate solicitor for Indian Affairs 
in the office of the solicitor within the Department of the Interior.
    I am honored to have been nominated by President Bush and look 
forward to the challenges that lie ahead. Indian country provides an 
overwhelming number of challenges: Youth suicide, methamphetamine 
abuse, high unemployment rates on many reservations, lack of adequate 
health care, challenged education facilities and curriculums, crumbling 
infrastructures from roads to irrigation ditches, and crime outpacing 
law enforcement personnel and funds. Additionally, Indian country has 
its unique, though historically consistent, problems like the erosion 
of sovereignty, expanding self-governance and self-determination, 
ensuring adequate housing, and fighting to maintain its identity and 
control over its destiny and lands.
    If you ask me why I want this job? My answer will be: Because of 
all the challenges that exist. The challenges Indians and Alaska 
Natives face today seem insurmountable. Yet, I see the determination 
and the potential of Indians and Alaska Natives. Reservation 
populations are growing. Leaders are digging in to stem the spread of 
methamphetamines and the lawlessness that follows in its wake. 
Educators, parents, and police are learning to identify youth at-risk 
of committing suicide and interceding. Teachers at tribal schools 
provide more with less. Inch by inch tribes are reclaiming their land 
and the inherent rights of such ownership.
    As Indians and Alaska Natives reclaim their rights lost through 
history or to societal plagues, the Department of the Interior must be 
their partner in these battles. I hope to expedite and streamline 
access to Departmental programs to assist tribal and Alaska Native 
communities to develop their natural, political, and socio-economic 
infrastructure.
    The trust litigation of the last decade has tested the commitment 
of many, especially the overarching Individual Indian Money Account 
litigation. Many in the Department are afraid their actions, no matter 
how well meaning or beneficial to the tribes, will run afoul of the 
plaintiffs attorneys and the sifting judge, and that they may be held 
in contempt. This fear bogs down the Department, impedes the Indian-
centric goals of the Department, and hurts tribes and individual 
Indians across the nation. Resolution to this matter is critical, 
whether it comes from Congress, the Administration, or the courts. From 
whatever quarter it hales, if confirmed, I will assist in its 
development and implementation. The sooner this litigation ends, the 
sooner we improve our relationship with tribes, and the sooner we 
increase for Indians and Alaska Natives the impact of the benefits of 
that relationship.
    The Department of the Interior can and will be a positive force in 
Indian country. It is impossible to eliminate immediately that which 
has festered for years. However, I will lay the foundation for an era 
that will provide a fresh start and new commitments, through action, to 
programmatic goals and mandated duties. This will allow tribal 
governments, Indians, and Alaska Natives to build bulwarks against the 
societal plagues. They can further reclaim their unique cultures rich 
in tradition, spirituality, and group-centric values, not one of 
despair and hopelessness.
    If confirmed, I will foster an interaction born of a partnership 
and mutual goals, not just fiduciary requirements.
    If confirmed, I will use the Office of the Assistant Secretary for 
Indian Affairs to promote communications between tribes that have 
realized financial success, either through gaming or other business 
ventures, and those that strive for a fraction of that success to move 
beyond provision of subsistence benefits for their membership. The 
success of one tribe, either in business, government administration, or 
cultural preservation, is the best incubator for success of other 
tribes. Trailblazing tribes allow those that follow to go even further.
    If confirmed, I will use the Office to promote more vibrant and 
goal-oriented communications between tribes and their neighbors, be it 
a local or State Government or a business that seeks to partner with 
the tribe for their mutual benefit.
    If confirmed I hope to foster the growth of tribal-governments. 
Tribal sovereignty is inherent, and this sovereignty is best exhibited 
in a vibrant tribal government one that understands judicious exercise 
of its jurisdiction for the benefit of its members and the seventh 
generation. Tribal governments embody the power of sovereignty. The 
tribal government cares for the present and plans for the future. It is 
what the outside examines to judge the health of the tribe. It is the 
face of the tribe and hope of the tribe's future.
    Tribal governments can accomplish great things. The peoples and 
tribes of the Haudenosaunee, the Iroquois Confederacy, comprise the 
oldest continuous participatory democracy on Earth. Authors of our, the 
United States, representative government, Ben Franklin and Thomas 
Jefferson were inspired by the Iroquois Confederacy, its inner-
workings, and the Constitution of the Iroquois Nations known as the 
Great Binding Law, GAYANALAGOWA. Our Founding Fathers' inspirations, 
rooted in the Haudenosaunee, guide all of our lives today and continue 
to motivate people across the globe to achieve a greater freedom for 
themselves and their fellow countrymen.
    This is the potential of tribal governments.
    But before they inspire neighbors or nations, tribal governments 
must be able to fight the cancer within--the obstacles of drug abuse, 
youth suicide, joblessness, and hopelessness. Indians and Alaska 
Natives must reach into their great pasts to find their way and provide 
the impetus for change. And if confirmed, I hope to bring forth the 
potential of the breadth and depth of the Department of the Interior, 
and specifically the Office of the Assistant Secretary for Indian 
Affairs, so that Indians and Alaska Natives can use these resources--
their resources to conquer the problems bearing down on their 
governments and people, to gain that foothold that will propel them 
upward, to preserve a culture and build a legacy, and to provide a 
future for their seventh generation that is as great as their past.
    Mr. Chairman, Senators, thank you.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 Prepared Statement of Hon. Kent Conrad, U.S. Senator from North Dakota

    Mr. Chairman, thank you for holding this hearing today to discuss 
the nomination of Carl J. Artman to head the Bureau of Indian Affairs 
at the Department of the Interior.
    The position of Assistant Secretary for Indian Affairs has been 
vacant for more than 1\1/2\ years I am pleased that the committee will 
be acting today on his nomination so that we can quickly fill this very 
important position.
    I have not had an opportunity to meet directly with Mr. Artman, but 
I do want to take 1 moment to highlight some of the issues of concern 
to me and the tribes in my State. I continue to be concerned about the 
lack of oversight by the BIA over the Joint Tribal Advisory Committee 
[JTAC] funds provided to the Standing Rock Sioux Tribe and the Three 
Affiliated Tribes. These funds were provided as compensation for the 
land lost due to the construction of the dams along the Missouri River. 
Unfortunately, despite guidance from Congress on how the funds were to 
be spent, funds released by the BIA have not always been used for the 
intended purposes.
    I also continue to be concerned about the BIA's lack of support for 
United Tribes Technical College [UTTC] located in Bismarck, ND. United 
Tribes is a unique institution; it is the only intertribally-controlled 
postsecondary vocational institution in the country. UTTC provides 
valuable educational opportunities to students from more than 40 tribes 
across the Nation. While the BIA believes the college's funding through 
the Department of Education is adequate to meet its needs, UTTC cannot 
keep its doors open without the funding it has received from the BIA.
    Housing, health care, education, and economic development are also 
great needs across Indian country that have not been adequately 
addressed by this Administration.
    These are just a few of the many challenges facing tribes and 
Native Americans in my State. I hope that soon after he is confirmed 
Mr. Artman will visit North Dakota and sit down with tribal leaders and 
hear from them directly. I think such a meeting would be very valuable 
as he tackles this great new challenge.
    The great plains tribes have worked very hard to strengthen 
government-to-government relations between Indian nations and the 
Federal Government. As the head of the BIA, Mr. Artman will help guide 
these relations and set the tone for the Administration with respect to 
Federal Indian policy.
    Programs and services targeting Native Americans result not from 
Federal largess; they are part of a commitment to tribes by our 
country. We need to live up to those obligations by ensuring adequate 
resources for health care, housing, education, and economic 
development. And part of that obligation is a strong working 
partnership between the Federal Government and tribal nations.
    Mr. Chairman, the tasks facing Mr. Artman are serious and 
challenging. I think this is one of the hardest jobs anywhere. I wish 
him well and hope that he will be a good advocate within the Federal 
Government for the tribes of this Nation.
    Thank you, Mr. Chairman.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
